NO-20-6168

IN THE
SUPREME COURT OF THE UNITED STATES

R.E. Christopher J. Rahaim — Petitioner
vs.
State of Florida, United States of America — Respondents,
On Petition for Writ of Certiorari
Dismissal of State Cases, Habeas Corpus
Florida Supreme Court Case Numbers:
SC20-918, SC20-1218, SC20-1409

PETITION FOR REHEARING
Pursuant to rule 44 of this court, Petitioner requests this honorable court to rehear this
case and accept jurisdiction. State sovereignty should not be a license to defraud citizens of
fundamental rights provided by constitutional amendments and by conflicting, vague and
ambiguous wording requiring rulings of this court. Petitioner has a right to be heard on the
merits. All courts have denied the right to be heard and acknowledge extrinsic fraud, falsified
documents and the actual innocence of the Petitioner. The fundamental right to be presumed
innocent until proven 'guilty is deprived. Obstruction of justice exists by the denial to a fair
contest of the merits and the denial to hear this case. (see Questions for Supreme Court review
pgs. 5-11 previously submitted).
Accordingly, Petitioner demands his right to review based on the evidence of actual
innocence presented to this court showing a fundamental miscarriage of justice has occurred
and will continue to exist without a ruling from this court. The Federal Constitution rule of
1

RECEIVED
FEB 2 3 2021
OFFICE QF THE CLERK
1RT

Appeal § 751 requires the U. S. Supreme Court to review a state courts finding of facts where a
conclusion of law as to a federal right and the finding of fact are so intermingled that it is
necessary to analyze the facts. Any challenge to constitutional conflicting wording should
require review by this court.

CERTIFICATE OF SUBSTANTIAL
INTERVENING CIRCUMSTANCES

These grounds show substantial intervening circumstances by state deprivation of rights. ,
The original submissions to this court were returned by the clerk. Submissions filed December
30, 2020 contained resubmitted issues that were never filed or considered by this court.
Accordingly, this resubmission of petition for rehearing requires the court to consider several
issues, that by the returning of documents by the clerk, were never presented to this court.
Petitioner certifies these facts show substantial intervening circumstances.
Signed: r.,357,4_,..

CERTIFICATE OF GOOD FAITH
This certifies that this petition is filed in good faith not for the purposes of delay.
Signed:

/L.,_

QUESTIONS FOR SUPREME COURT REVIEW
Petitioner elaborates on questions pertaining to Florida's Article 1 § 1
"Political Power" of the Florida Constitution, Amendment IX of the U.S.
Constitution, and elements for Habeas Relief.
Applying doctrines of ambiguity, vagueness, indefinite wording and fair
warning to ordinary people, where violations of due process clauses in the 5th, 6th
and 14th amendments exist, should constitutional amendment IX be voidable,
unenforceable and revisited by this court under the stare decisis doctrine? See Johnson v. United States, 135 S. Ct 2551 (2014); Kalender v. Lawson;-461 U.S.
352 (1983), Brunell v. State, 360 So. 2d 70 (Fla. 1978), Shevin v. InternationalWorkers, 353 So. 2d 89 (Fla. 1977), all defining; unconstitutional vagueness_ or::
ambiguity violates due process where men of common intelligence must guess at
the laws meaning and fails to give ordinary people fair notice of the laws intent.
Where the challenged article 1 § - 1 of the Florida Constitution and
Amendment IX of the U.S. Constitution are both unconstitutionally vague and
ambiguous, should not this court rule there is a justiciable case for review by the
"impact of actuality", because amendments 5, 6, 14, that provide for the due
process violations, are the same Amendments that cannot deny, disparage or impair
the others referred to, and provided by, Article 1 § 1 Fla. Constitution and
Amendment IX, U.S. Constitution? The challenged Article and Amendment
Page 5

disqualifies the very Amendments that provide opposition to the vague and
ambiguous wording in the challenged Article 1 § 1 and Amendment IX, creating an
internal constitutional conflict that only the U.S. Supreme Court can resolve.
Applying the 14th Amendment's provision that no state shall enact any
law that abridges the rights provided by the U.S. Constitution, does not the scales
of justice tip toward the side of tyranny, as opposed to liberty, inviting arbitrary law
enforcement, when Amendment IX provides a vehicle where fundamental rights
are abridged regardless. See: Conally v. General Construction Co., 269 U.S 385
(1926). The arbitrary enforcement, by undercover investigations, of Artiele I §- 1 of
The Florida Constitution and Amendment IX of The U.S. Constitution, provides a
vehicle where fundamental due process rights to trial and exculpatory evidence are
denied. This is a clear violation, obstructing justice, pursuant to Title 18 Ch. 73 §
1506, § 1512.
Does not the challenged Article 1 § 1 and Amendment IX violate The
Declaration of Human Rights, Articles 10, 11.1 and 30, providing rights to a fair
trial cannot be deprived by any means. The Declaration provides a private right
upon citizens to due process under the 6th and 14th Amendments to the U.S.
Constitution. see case: Dreyfus v. VonFink, 534 F. 2d 24 (1975). This Declaration
gives the U.S. Supreme Court jurisdiction under 28 U.S.C. § 1331 providing
remedy by Writ of Habeas Corpus under 28 U.S.C. § 2241 for a state prisoner
Page 6

being held in custody in violation of the laws or treaties of The United States,
pursuant to 28 U.S.C. § 1651.
5. Does not state, federal and U.S. Supreme Court rulings show an
obligation to prevent arbitrary law enforcement and unfair notice by voiding vague
and ambiguous laws with the intent to rule with lenity in favor of criminal
defendants? See: U.S. v. Bass, 404 U.S. 336 (1971) citing § 188, Sessions v.
Dimaya, 200 L. Ed. 2d 549 (2017), Perkins v. State, 576 So 2d 1310 (Fla. 1991).
6.. Are assistant state prosecutors, who are not retained elected_ officers of
the state, exempt and prohibited, by state statutes and constitutional Articles and
Amendments, from legally conducting undercover investigations?
Applying substantive state law in federal .proceedings; Arrieta Gimenez v.
Arrieta Negron, 896 F. 2d 1033 (1St Cir. Court of. Appeals 1988) and-where the
Florida Supreme Court has interpreted Article 1 § 1, of the Florida Constitution,
defining the inherent right of the people by their vote in an election; see:
Armstrong v. Harris, 773 So 2d 7 (Fla. 2000), Wright v. City of Miami Gardens,
200 So. 3d 765 (Fla. 2016), only an elected official, retained by the peoples vote,
as an officer of the state, applies to the wording "cannot be denied or impaired by
the enumeration of rights in the constitution." Therefore, can assistant prosecutors
in this case, Michael Man, Broderick L. Taylor, Kelly McKnight and Frederick L.
Shaub, who are not elected, not retained by the people and not officers of the state;
Page 7

see Austin v. State Ex. Rel. Christian, 310 So. 2d 289, 1975 Fla. Lexis 3430 (Fla.
1975), claim they are retained by the people and cannot be impaired or denied?
This also involves judges who are appointed, not elected by vote. Their claim may
apply administrative rule 4.84 (c) Fla. r. professional conduct. However, their
conduct would violate Fla. Sta. § 843.0855: criminal actions under color of state
law through the use of simulated legal process. Statutory laws take precedent over
administrative rules. See: Willette v. Air Pods, 700 So. 2d 577 (Fla. 1" DCA 2003).
Fla. Statute § 843.0855 provides any person who simulates any documents with
knowledge of fraud commits a felony of the 3' degree. In addition to being exempt
from Art. 1 § 1, this would also void the assistant prosecutors claim that they can
legally commit fraud by suppression of exonerating evidence and falsifying
documents. Appendices 4 and 5 (attached herein) and contained in the Petitioners
Response, filed September 14th 2020, prove the knowledge of fraud by prosecutors
and the circuit court by the fact they sent the states response and the "record on
appeal" through internal prison mail channels, twice, not using U.S. mail. These
acts were to intentionally avoid committing the federal crime of mail fraud, Title
18 USC § 1341 and show consciousness of guilt and bad faith litigation. They
prove the merit in Petitioners allegations of fraud.
7. Where evidence of bad faith prosecutions of non-existent crimes is
concealed, where the fact finding procedure, employed by the state court, was not
Page 8

adequate to afford a full and fair hearing, where the material facts were not
adequately developed at the state court hearing, where, in this case, there are 111
material facts with 94 verifying exhibits all showing no reasonable finder of fact
could convict the Petitioner, does not this all show exceptional circumstances and
an entitlement to habeas corpus relief?
Can the criminal conduct and conspiracy by assistant prosecutors, the
State Attorney, and the Department of Justice go unchecked and continue to
deprive an actually innocent Petitioner from the rights to: self-representation,
speedy trial, exonerating evidence, and release?
Does not the following evidence and factors prove there exists racial biaswith intent to falsely imprison the Petitioner. by bad faith acts. depriving rights
under color of law?
A. The lengthy arrest record with no convictions
B. The continuing malicious, fraudulent prosecutions of non-existent crimes.
The falsified federal files, claiming the Petitioner is anything but a
successful, innocent Catholic musician, entrepreneur, with no reason to engage in
criminal activity, but being victimized by an ongoing conspiracy to kidnap.
The intentional changing of Petitioner's last name - by prosecutors to
indicate, falsely, Muslim heritage.

Page 9

E. The insistence of all state employees to mispronounce Petitioner's name,
insisting on saying "Raheem", despite countless, constant corrections.
Does this not all show a racially biased intent to falsely imprison the
Petitioner by bad faith acts depriving rights under color of law? see: Imbler v.
Pachtman, 424 U.S. 409 (1976). Does this not all warrant removal of this case
from state court and habeas relief, pursuant to Title 28 Chapter 81 § 1443, §
1455?
10.

Does not the doctrines of vagueness,., ambiguity, voiding laws for

violating due process clauses of the 5th, 6th, 14th Amendments;,-the internal conflid
between these principles opposing the IX Amendment, the rulings voiding laws
that invite arbitrary law enforcement, ruling in favor of lenity with criminal
defendants, including the unauthorized practice of assistant prosecutors to
criminally suppress evidence that shows no finder of fact could convict the
Petitioner, all show this case is justiciable by the "Impact of Actuality" warranting
certiorari review and habeas corpus relief, pursuant to § 2241, § 2283, and § 1443?
Further evidence, proving review of this Supreme Court is warranted, is the
fact that the state of Florida has conceded to the merits of Petitioner's requests for
dismissal of cases and a writ of habeas corpus by no denial nor response from the
state. The Florida Attorney General has waived the states right to respond,
declaring it will not file a response. (see appendix 6). In case: State v.
Page 10

Kalergeropolous, 758 So. 2d 110 (Fla. 2000), The Florida Supreme Court ruled no
response, by the state, to a motion to dismiss, is an admission to the merits of the
Petitioner.
The Attorney General of Florida also refuses to respond to the petition in
case SC20-1409 (see appendix 3 pg. 3). The state concedes to the Petitioner's
merits, admitting fraudulently concealed DNA evidence, documents and
exculpatory witness testimony is being illegally suppressed by sealed files,
violating Article 1 § 24 of The Florida Constitution and Amendments 6 and 14 of
The U.S. Constitution. The circuit court will not hold prosecutors in contempt for continually refusing to comply with court orders- for exculpatory- discovery. (see
appendices 7 and 8).
The State of Florida presents no evidence to this Supreme Court to refute
any and all claims made by the Petitioner. Any response; by the State; refuting any
claims made by the Petitioner, would be in furtherance of the ongoing "Fraud On
The Court", perpetrated by the State of Florida and The Department of Justice.
Petitioner has shown competent evidence proving the highest level of controversy
exists for review by the U.S. Supreme Court, complying with chapter. 133 § 2108.
Respectfully submitted,

Petitioner, pro se
Page 11

